<html>
<title> - [H.A.S.C. No. 114-30] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2016 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 114-30]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

      FISCAL YEAR 2016 BUDGET REQUEST FOR NATIONAL SECURITY SPACE

                               __________

                              HEARING HELD
                             MARCH 25, 2015


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                    


                                     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                 Steve Kitay, Professional Staff Member
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Cardillo, Robert, Director, National Geospatial-Intelligence 
  Agency.........................................................     7
Hyten, Gen John E., USAF, Commander, Air Force Space Command.....     3
Loverro, Douglas L., Deputy Assistant Secretary of Defense for 
  Space Policy, Department of Defense............................     4
Raymond, Lt Gen John W. ``Jay,'' USAF, Commander, Joint 
  Functional Component Command for Space.........................     6
Sapp, Betty, Director, National Reconnaissance Office............   103
Weatherington, Dyke, Acting Deputy Assistant Secretary of Defense 
  for Space, Strategic, and Intelligence Systems, Department of 
  Defense........................................................     5

                                APPENDIX

Prepared Statements:

    Cardillo, Robert.............................................    96
    Hyten, Gen John E............................................    31
    Loverro, Douglas L...........................................    52
    Raymond, Lt Gen John W. ``Jay''..............................    78
    Rogers, Hon. Mike............................................    29
    Sapp, Betty..................................................   107
    Weatherington, Dyke..........................................    68

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Lamborn..................................................   127
    Mr. Rogers...................................................   121
    
    
    
    
    
      FISCAL YEAR 2016 BUDGET REQUEST FOR NATIONAL SECURITY SPACE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                         Washington, DC, Wednesday, March 25, 2015.
    The subcommittee met, pursuant to call, at 4:58 p.m., in 
room 2212, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. I want to welcome everyone to 
the Strategic Forces Subcommittee's hearing on the fiscal year 
2016 national security space activities of the Department of 
Defense.
    We are honored to have a panel of expert witnesses who lead 
multiple areas of national security space enterprise. They are 
General John Hyten, Commander, Air Force Space Command; Mr. 
Douglas Loverro, Deputy Assistant Secretary of Defense for 
Space Policy; Mr. Dyke Weatherington, Acting Deputy Assistant 
Secretary of Defense for Space, Strategic, and Intelligence 
Systems; Lieutenant General John ``Jay'' Raymond, Commander, 
Joint Functional Component Command for Space; Mr. Robert 
Cardillo, Director of National Geospatial-Intelligence Agency 
[NGA]. And we are awaiting Ms. Betty Sapp, Director of the 
National Reconnaissance Office. She still hasn't been able to--
we haven't been able to reach her since we moved the hearing 
back from 6 o'clock, but we have her opening statement.
    This is a big panel. We will work to give every member a 
chance to ask questions in this open hearing, at which point, 
we will adjourn to a closed session to continue our oversight 
in an appropriately secure fashion.
    I would like to take note that this is the first time we 
are having the Director of NGA testify at the Strategic Forces 
annual space posture hearing. This is important both literally 
and symbolically.
    From a literal point of view, NGA has a critical role 
within the national security space community and, as a combat 
support agency, NGA provides tremendous support to our 
warfighters. From a symbolic point of view, the six of you on 
this panel, along with the other armed services and members of 
the space community, need to be working extremely closely 
together.
    While each of you has your own missions with different 
roles and responsibilities, it is essential that national 
security space is integrated across the Department of Defense, 
both unclassified and classified programs. In the end, all of 
your jobs are to support and defend our country.
    Regarding the posture of national security space, we 
currently face many serious challenges. On January 28 of this 
fiscal year, the Armed Services Committee held a hearing with 
Mr. Frank Kendall, the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, as a witness.
    Chairman Mac Thornberry opened up the hearing with a 
question regarding the U.S. technological superiority and asked 
Mr. Kendall to provide his greatest concern. Mr. Kendall 
responded, ``We are at risk, and this situation is getting 
worse.''
    He further went on to state, ``The U.S. is being challenged 
at an unprecedented rate. It is not just missiles. It is other 
things, such as electronic warfare capabilities, anti-satellite 
capabilities, and a spectrum of things to defeat our space 
system. It is a number of things which I think are being 
developed very consciously to defeat the American way of 
projecting power, and we need to respond to that.''
    Mr. Kendall could not talk specifics in an open session. 
But when the most senior acquisition and technology leader of 
the Department of Defense [DOD] says we are at risk of losing 
our technological superiority, he must have our attention. We 
want to understand how you will be addressing that threat.
    Aside from the growing foreign threat, we have also heard 
from our senior DOD and Air Force leaders about their concern 
about our assured access to space posture going forward. We 
held a hearing on this last week, and we will have a few more 
questions on that topic today.
    Separately, we have heard risks of not maintaining the 
appropriate space-based weather-collection capabilities for top 
Department of Defense requirements. I am concerned we are not 
taking a strategic long-term view and are headed down a path 
with significant risk. We will not allow critical capabilities 
our warfighters rely on to be based out of Moscow or Beijing.
    Additionally, we have systems on orbit that we have 
invested billions of taxpayer dollars in that we are still not 
fully using because of delays in ground systems and user 
terminals. We must do better for the taxpayer and the 
warfighters.
    And, lastly, we are all aware of the current budget 
pressure. This means we need to do business smarter without 
sacrificing capability. As I have said multiple times in the 
past, I believe we can save money in wideband satellite 
communications, as one example. It will take strategic 
planning, better partnerships with commercial industry, and new 
contracting approaches.
    Regarding the budget request, I support technology 
development and evolutionary acquisition, but remain concerned 
with efforts to create new programs, such as in missile warning 
and protected communications, and will conduct close oversight 
of such activities. I will need to be convinced that this is 
the right time to make billions of dollars in investments in 
new programs when our current programs are working better than 
expected.
    I know the great men and women of the Department of 
Defense, including military, civilian, and industry partners, 
will not shy away from these challenges. It will take work, and 
I believe that we need to strengthen national security space 
through capabilities development, organization, management, 
policy, and funding.
    Thank you again for your leadership and for being with us 
today regarding these important topics. I look forward to your 
testimony.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 29.]
    Mr. Rogers. I now recognize my friend and colleague from 
Tennessee, the ranking member, Mr. Cooper, for any opening 
statement.
    Mr. Cooper. Thank you, Mr. Chairman. It is a pleasure to 
work with you.
    And I, too, welcome the distinguished witnesses.
    We have a crowd of witnesses to hear from today. So I will 
forego an opening statement and look forward to the testimony 
of the witnesses.
    Mr. Rogers. Now you know why I like him so much.
    Roll Tide.
    General Hyten, you are recognized for your opening 
statement.

  STATEMENT OF GEN JOHN E. HYTEN, USAF, COMMANDER, AIR FORCE 
                         SPACE COMMAND

    General Hyten. Thank you, Congressman. And Roll Tide.
    Chairman Rogers, Ranking Member Cooper, distinguished 
members of the subcommittee, it is a pleasure to be here today 
to represent the 38,000 men and women in the Air Force Space 
Command and tell our story. It is also a privilege to be here 
with my distinguished colleagues and friends to discuss some 
very important issues with you.
    Everyone here has been fortunate enough to witness our 
Nation's evolution in space power. Our combatant and theater 
commanders have fully realized how fundamental space-based 
effects have become, but our potential adversaries have been 
watching and working to challenge these very capabilities.
    So to prepare for tomorrow's fight, we have to be ready to 
respond to any threat. That response starts with command and 
control. And so we have to assure that our Space Operations 
Center is prepared to meet the challenges of daily operations 
and demands of war, and that starts with the Joint Space 
Operations Center [JSpOC] mission system [JMS] at Vandenberg 
Air Force Base. This is the key to everything.
    Winning tomorrow's war also includes countering adversarial 
actions, and we are working to increase our overall resiliency 
by investigating desegregation, hosted payloads, onboard 
satellite protection, and defensive operations, as well as 
leveraging commercial capabilities. But we can build resilient 
architectures all day and, without assured access to space, it 
means nothing.
    With today's national reliance on space capabilities, 
assured access has gone from important to imperative. It is our 
highest priority. So, in case you missed it just a couple hours 
ago, this afternoon we had another successful launch from Cape 
Canaveral. Delta IV with GPS [Global Positioning System] IIF-9 
onboard was successfully launched, and that makes 82 successes 
in a row for the EELV [Evolved Expendable Launch Vehicle] 
program and ULA [United Launch Alliance].
    But we also support competition in a healthy space launch 
industrial base and must move as fast as we can towards rocket 
engines that are built in the United States. So the Air Force 
and SpaceX are aggressively working together to close all the 
remaining criteria that we have to meet a June 2015 
certification, and we are collaborating with private partners 
to invest in industry solutions for U.S.-made rocket propulsion 
systems.
    Finally, returning to funding levels as directed by the 
Budget Control Act of 2011, the Air Force Space Command is 
going to have a difficult time meeting operational 
requirements. Compromises will be made. Risks would increase in 
any scenario. But we know that we have to continue to provide 
the Nation with necessary capabilities and not lose ground in 
the space arena.
    So, Mr. Chairman, I thank you for your support, and I look 
forward to working with Congress to provide resilient, capable, 
and affordable space capabilities for the joint force and the 
Nation.
    Thank you very much, sir.
    [The prepared statement of General Hyten can be found in 
the Appendix on page 31.]
    Mr. Rogers. Thank you, General.
    Mr. Loverro, you are recognized for 3 minutes.

STATEMENT OF DOUGLAS L. LOVERRO, DEPUTY ASSISTANT SECRETARY OF 
        DEFENSE FOR SPACE POLICY, DEPARTMENT OF DEFENSE

    Mr. Loverro. Thank you, Mr. Chairman.
    Chairman Rogers, Ranking Member Cooper, members of the 
subcommittee, I am pleased to appear before you today to 
discuss the DOD's national security space program and, in 
concert with my fellow panelists, report to you on the shared 
progress we have all made to respond to the growing threats in 
that domain. Those threats continue to mature, and our 
adversaries are not sitting still. Let me assure you, neither 
are we.
    In order to address these threats, the Department has 
increased its budget for space security by $5 billion. This 
substantial increase is intended to make certain that U.S. 
space forces are as dependable as the terrestrial forces which 
depend upon them. These investments, as well as other 
nonmaterial changes, will make clear to all that attacks in 
space are not only strategically ill-advised, but militarily 
ineffective.
    Notwithstanding our increased focus on the national 
security dimensions of space, we remain absolutely committed to 
assuring the peaceful use of space for all. Space is a global 
good and has been a driver for economic growth, environmental 
monitoring, verification of treaties, and an enabler for 
everyday citizens at home and abroad. Several of the 
initiatives I will discuss today are intended to extend that 
commitment, deter conflict in space, and enhance the economic 
benefit we all derive.
    But let me be clear. We can no longer view space as a 
sanctuary. Potential adversaries understand our reliance on 
space and want to take it away from us. We won't let them. The 
U.S. leads the world in space on the commercial side, the civil 
side, and the national security side. We will not cede that 
leadership.
    Together with allies and commercial partners, we will 
continue to defend the right of all nations to access space for 
peaceful purposes. But where that access is threatened, where 
others would seek to remove the national security or economic 
benefits we derive from that access, we will defend our use 
just as we would in any other domain.
    My written remarks include additional detail. But in the 
interest of time, I would like to go ahead and thank you for 
the opportunity to discuss these policies and programs with you 
today. I look forward to working closely with Congress on these 
issues, and I stand ready to answer your questions.
    Thank you.
    [The prepared statement of Mr. Loverro can be found in the 
Appendix on page 52.]
    Mr. Rogers. Thank you, Mr. Loverro.
    And now we will go to Mr. Weatherington for 3 minutes.

   STATEMENT OF DYKE WEATHERINGTON, ACTING DEPUTY ASSISTANT 
  SECRETARY OF DEFENSE FOR SPACE, STRATEGIC, AND INTELLIGENCE 
                 SYSTEMS, DEPARTMENT OF DEFENSE

    Mr. Weatherington. Thank you, Chairman Rogers, Ranking 
Member Cooper, and distinguished members of this subcommittee.
    It is my pleasure to be part of this esteemed panel, which 
together represents the full spectrum of the United States 
national security space enterprise.
    With your permission, I would like to submit my written 
statement for the record and just offer a very short oral 
statement so we can get to your questions more quickly and have 
a meaningful discussion.
    Mr. Rogers. Without objection, so ordered.
    Mr. Weatherington. I am pleased to report to you that the 
Program Executive Officers for Space have been able to leverage 
that which has been provided by Better Buying Power initiatives 
undertaken by my boss, Under Secretary for Acquisition, 
Technology, and Logistics, to generate significantly improved 
prices and real savings as the government negotiates production 
contracts for several space systems. We look forward to seeing 
how these latest iterations of Better Buying Power 3.0 will 
continue this trend and save the taxpayers real dollars.
    I am also happy to report--and this is in no small part due 
to the diligence of my distinguished colleagues, General Hyten 
and Ms. Sapp--that, with a few exceptions, our defense and 
intelligence satellite constellations are currently in a 
relatively stable, healthy, and well-populated situation to 
support both the Nation and our warfighters.
    That said, we also need to recognize that many of these 
constellations will be entering a window of recapitalization in 
the coming years. How we approach these recaps will be a 
primary concern of the Department and will hinge on many 
ongoing analysis and study efforts, chief among those being the 
Secretary's strategic portfolio review and several key analysis 
of alternative studies. And, of course, those plans and 
programs will be drastically and harmfully impacted should the 
Department be hampered by another sequestration.
    Moreover, I believe you will certainly take away a common 
theme from this panel today, a theme that no uncertain term 
portrays the rapidly emerging additional vulnerability. And, of 
course, I am speaking to the point that space is no longer a 
sanctuary. Would-be adversaries are developing formidable 
capabilities, capabilities designed to operate for the express 
intent of denying our intelligence professionals and uniformed 
warfighters the asymmetric advantages derived from our space 
capabilities.
    You will hear from all my colleagues on this point, each 
from their own unique vantage point. From where I sit, it is my 
job to ensure the Department acquisitions for new capabilities 
stay abreast of this rapidly evolving challenge and that our 
warfighters have the capability they need, but not at the price 
that is untenable to Congress and the American people.
    The President's fiscal year 2016 budget offers just these 
solutions, with a mix of sustainment of current capabilities, 
refreshing and upgrading other capabilities, and offering new 
starts for some very unique capabilities.
    Let me wrap up, as I promised to be short. Thank you for 
working with us to provide space capabilities that address a 
warfighter's needs, prepares for future challenges, and looks 
at the broad range of our national security interests and 
protects the U.S. taxpayers.
    I look forward to your questions, Chairman.
    [The prepared statement of Mr. Weatherington can be found 
in the Appendix on page 68.]
    Mr. Rogers. Thank you, Mr. Weatherington.
    Now General Raymond is recognized.

 STATEMENT OF LT GEN JOHN W. ``JAY'' RAYMOND, USAF, COMMANDER, 
          JOINT FUNCTIONAL COMPONENT COMMAND FOR SPACE

    General Raymond. Chairman Rogers, Ranking Member Cooper, 
and members of the subcommittee, it is indeed an honor to 
appear before you again with my distinguished colleagues as the 
Commander of the United States Strategic Command's Joint 
Functional Component Command for Space [JFCC Space]. In doing 
so, I am representing the 3,200 soldiers, sailors, airmen, 
marines, civilians, and allied exchanges officers that make up 
the command.
    Last year, I testified just shortly after my change of 
command that the space environment had changed. It was no 
longer the relative sanctuary it once was. Over this past year, 
the pace of change has accelerated and today the domain is even 
more congested, contested, and competitive than it was before 
with no signs of slowing down. We are quickly approaching the 
point where every satellite and every orbit can be threatened 
and the strategic, operational, and tactical advantages derived 
from space are no longer a given.
    Now, more than ever, our responsive and flexible global 
space force is critical to our ability to continue to exploit 
the advantages of space. We are transforming our Joint Space 
Operations Center from an organization focused largely on 
cataloging objects in space to a command and control capability 
with the space domain awareness needed to meet those current 
and future challenges. With the help of the United States 
Strategic Command and the services, this transformation is 
being fueled through innovation, experimentation, and 
partnerships.
    As U.S. Strategic Command's Functional Component Commander 
responsible for conducting space operations in the domain, I am 
concerned that, if we do not receive relief from the Budget 
Control Act, our ability to provide our Nation assured access 
to these critical space capabilities will be at risk.
    We are absolutely committed to assuring global access to 
space and peaceful operations in and through the space domain. 
Credible, reliable, and assured space capabilities are vital to 
our Nation's strategic deterrence. I look forward to continuing 
to work with you and your staffs as we advance and protect our 
Nation's space capabilities.
    Thank you.
    [The prepared statement of General Raymond can be found in 
the Appendix on page 78.]
    Mr. Rogers. Thank you, General.
    The Chair now recognizes Mr. Cardillo for 3 minutes.

  STATEMENT OF ROBERT CARDILLO, DIRECTOR, NATIONAL GEOSPATIAL-
                      INTELLIGENCE AGENCY

    Mr. Cardillo. Chairman Rogers, Ranking Member Cooper, and 
distinguished members of the committee, thank you very much for 
the invitation to join my colleagues here to testify before you 
today.
    The National Geospatial-Intelligence Agency is the Nation's 
primary provider of geospatial intelligence [GEOINT] for both 
the Department of Defense and the Intelligence Community. Every 
local, regional, and global conflict has geolocation at its 
heart.
    In a complex world of accelerating change, GEOINT delivers 
spatial awareness, temporal context, and insight that enables 
understanding and reveals unknown activities. NGA produces 
GEOINT with content from an array of platforms. As the GEOINT 
functional manager, I oversee current and future GEOINT 
requirements, evaluate sensor system performance to meet those 
needs, and we continue to require high-resolution imagery and 
have an increasing need to image targets frequently to maintain 
persistent awareness.
    The sensors we use are not exclusively spaceborne. However, 
defense space programs are critical to accomplishing our 
diverse and worldwide mission. For spaceborne reconnaissance, 
NGA relies heavily upon platforms and services provided by the 
National Reconnaissance Office. NRO spaceborne assets continue 
to meet national security requirements that only its program 
could accomplish.
    The fiscal year 2016 budget request also funds acquisition 
of commercial satellite imagery. This imagery enables NGA to 
provide GEOINT in current, high-interest and rarely imaged 
areas of the world. It also allows us to develop products that 
support air and sea navigation and humanitarian assistance 
missions.
    The commercial satellite imagery market is expanding at an 
extraordinary rate, darkening the skies with small satellites 
that present a remarkable opportunity for NGA and our 
customers. If we can embrace the explosion in commercial 
sources and leverage the exquisite capabilities of our national 
technical space architecture, we have the opportunity to 
realize the persistent GEOINT coverage that NGA and our 
customers have sought for so many years.
    In closing, the President's budget for fiscal year 2016 
supports NGA's requirements for space and space-based systems 
and services, provides us the resources and the capabilities we 
need to support our warning, targeting, mission planning, 
navigation, and flight safety missions.
    So on behalf of the men and women of NGA, thank you for 
this opportunity to appear before the committee. I look forward 
to addressing your questions, and I look forward to earning a 
second invitation to testify before this committee.
    [The prepared statement of Mr. Cardillo can be found in the 
Appendix on page 96.]
    Mr. Rogers. I thank you for that comment and for being 
here.
    And I recognize myself now for the first set of questions.
    General Hyten and Mr. Loverro and General Raymond, this 
will be targeted toward you.
    The Department's requested a pretty significant increase in 
investment over the next several years for the protection and 
security of space systems.
    Could you tell us about those investments and why you think 
they are important.
    Let's start with you, General Hyten.
    General Hyten. So, yes, sir. As we look at the threat--and 
you have heard each of us in a different way talk about the 
threat being significant. And when we get into a closed hearing 
later, we will go into more detail about what that threat is.
    But as you look at that, it is clear that the United States 
must increase our ability to respond to that threat. So in that 
increased investment that Mr. Loverro referred to, you will see 
increased efforts in space situational awareness as well as 
response options that will allow us to respond to threats that 
we see coming in the future.
    And I think, as far as an open hearing, that is probably as 
far as I could go, but we can address that in more detail in 
the closed hearings.
    Mr. Rogers. Would you say the increased investments are 
proportionate to the need?
    General Hyten. I would say they are proportionate to need 
and they start us down a path. It would be nice to take more 
resources and begin. But, as you start programs, it is 
important to begin them in a prudent way so you understand what 
the initial investments are going to be and then grow from 
there. And that is what you will see in the fiscal year 2016 
President's budget, sir.
    Mr. Rogers. Mr. Loverro.
    Mr. Loverro. Yes, Mr. Chairman. First of all, I couldn't 
agree more with what General Hyten has already said. I think he 
is spot on.
    Let me just add a couple of remarks. As I alluded to in my 
opening statement, we have to recognize that space is not a 
sanctuary. And several of us have said it up there. That means 
a lot. That is not the way we designed and operated systems for 
many years.
    We designed and operated them as if it were. We did not lay 
out our space architectures. We did not build them with the 
notion in mind that they would be attacked by conventional 
means. That requires us to go ahead and make a change.
    I am very pleased that we have aggressively pursued that 
change in the President's budget. I think that we made many, 
many good investments. As General Hyten said, we can't do 
everything at once. To do so would be foolhardy. We would 
probably fail.
    But we have absolutely made a significant turn towards the 
space capability that we need to defend against adversaries, 
and we think that this will start us in the correct direction. 
There may be more in the future, but right now we think that we 
have got a very good balance within the fiscal year 2016 
budget.
    Mr. Rogers. Okay.
    General Raymond.
    General Raymond. Thank you, Chairman.
    I concur with what General Hyten and Mr. Loverro said. You 
know, for the last 20 years, we have worked hard to integrate 
space capabilities into the fight, and we have done so and it 
has fueled our way of war. We must protect those capabilities.
    Our capabilities were really designed at a time when the 
domain was a sanctuary. Today, if you look at our space 
capabilities with the lens of the contested threat that we see 
emerging, then challenges materialize and we need this 
investment to keep pace with those challenges.
    Thank you.
    Mr. Rogers. All right. Thank you.
    General Hyten, in the launch hearing last week, we didn't 
get an opportunity to hear your perspective on the EELV launch 
capability [ELC] contract.
    Can you provide your perspectives on the importance and how 
you can have fair competition with this contract in place.
    General Hyten. So, to be honest, Congressman, I don't think 
you can have fair competition with that contract in place. 
There will have to be a change. We are working with the 
acquisition community to figure out what that change is going 
to be. You may want to ask Mr. Weatherington about some of 
those issues.
    But let me just give a little bit of history of why we have 
the EELV launch capabilities, the ELC contract in place. It was 
really put in place to preserve a very fragile industrial base 
because, in the mid part of the last decade, the mid-2000s, we 
were facing an era where the satellites we were building for 
the national security were not being delivered and the 
commercial marketplace that we thought was going to boom did 
not materialize either. And, therefore, the industry was in a 
very fragile perspective because there was not launches there 
available to support that industry.
    So we created the ELC contract as a way to make sure that, 
even if we didn't launch--and there were years that we launched 
very small number of satellites--there would still be a healthy 
industrial base at the end of that period.
    It was also put in place that, God forbid, we ever had a 
launch failure, that there would be a means to preserve that 
industry as we worked through the issue of that launch failure 
as well. So it is really an industrial-based concern.
    As you build into a competitive environment, those reasons 
become much different. And so the competition and the existence 
of multiple capabilities really provide the resilience that you 
need to get through those kind of issues.
    And we believe that the launch manifest will be increased. 
It will still be a significant challenge for our acquisition 
community to figure out how to transition from the current 
structure into the future, and they are working that issue now, 
sir.
    Mr. Rogers. Great.
    Mr. Weatherington, the general wanted to put you on the 
spot. So I will do what the general ordered me to do.
    Mr. Weatherington. Mr. Chairman, General Hyten is 
absolutely correct. There were and are very valid reasons for 
the ECL construct as it exists today.
    But clearly there is an understanding that, with increased 
competition with the potential inclusion of new entrants into 
the launch capability family, that that capability, that 
function, has to be changed.
    And so we are working very diligently with the Air Force to 
adjust, and we have that flexibility in Phase 1A, the 
competitive activity that is currently undergoing. Phase 2, 
fundamentally, that function will be likely wrapped into the 
rates that we pay on a per-launch basis.
    And so the Department is committed to modifying and 
continuing to evolve its space launch capability to take 
advantage of the competitive launch environment that we see 
coming in the future.
    Mr. Rogers. Great. Thank you.
    The Chair now recognizes the ranking member for any 
questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    General Hyten, I noticed in your testimony that you have 
made some organizational changes. In fact, you lead your 
testimony with it. And I am just curious.
    By combining the A2, A3 and A6, is that something unique to 
your organization or is this something that is going to spread 
throughout the military?
    General Hyten. Right now it is unique to our organization, 
Congressman. But I think it is going to spread. And let me 
explain the fundamental reasons why.
    If you look at the capabilities that we have integrated, 
the -2, the -3, the -6, which is intelligence, operations, and 
cyber, you put those three things together and you think about 
what we do as a command, those are three operational missions 
that we do.
    If you go to an intelligence organization, whether it is 
the 18th Intelligence Squadron that is related to Space Command 
or another squadron in another command, and you look at the 
business that they do and you look at how we do space 
operations and then you go to San Antonio and you look at how 
we do cyber operations, it is very much the same.
    So I believe that, in the future, the power of the military 
is the ability to integrate all information. And in our 
command, there is three elements of that: space, intel, and 
cyber. And so it is a logical step to take those three pieces 
and integrate them together because the integration of 
information is going to be the power of military in the future.
    Mr. Cooper. So is it too much to say that, by breaking down 
these silos, that you have created a new best practice in the 
military?
    General Hyten. We have not created a new best practice yet 
because we are still going through it. It is a significant 
challenge because it is a change of culture as well.
    But our command is committed to changing that culture. We 
are committed to looking at each of those three areas as equal 
partners in the operations. And that is why we will have one 
flag officer on top of that pyramid that is responsible for 
integrating all those operations. We have had success so far, 
but we still have a long way to go.
    Thank you for the question.
    Mr. Cooper. Mr. Cardillo, in his testimony, makes the point 
very forcefully that one of his main problems is information 
overload, this vast array of data that comes in, how do you 
make sense of it.
    And I hope that we have good answers to those questions 
because understanding an infinite number of visual images, 
which you say are increasing exponentially, that is a big 
problem to get your arms around.
    How are we faring in that regard?
    Mr. Cardillo. Congressman, I couldn't agree with you more 
about the challenge. I have to tell you I am equally excited 
about the opportunity.
    What I mean is that, if we are successful in managing the 
data in a way that we haven't before, I think it is going to 
elicit signatures, patterns, indicators we haven't seen before. 
But I won't argue with you that this challenge isn't large. And 
we are taking it head on.
    Mr. Cooper. General Raymond's testimony was particularly 
interesting because I am not sure that the average constituent 
understands how crowded space is, with some 500,000 pieces of 
space junk up there. That is quite a lot to keep up with.
    And I forget whether it was your testimony or another 
person who said, basically, we are going to have the first 24/7 
traffic cop to warn people of collisions because there is some 
23 announcements a day of potential collisions between, you 
know, satellites and space junk.
    General Raymond. Yes, sir. The Joint Space Operations 
Center at Vandenberg actively tracks about 23,000 objects. 
Those are about 10 centimeters or greater. That is the size 
that we can track.
    As you mentioned, 500,000 are below that level that we 
can't track. The JSpOC, by its nature, serves as that traffic 
cop. We provide space traffic control, if you will, for the 
world, providing warning of potential conjunction to keep the 
domain safe for all.
    Last year, in 2014, alone, 121 times we recommended that a 
satellite move and it moved, including the International Space 
Station 3 times.
    Mr. Cooper. It worried me a little bit that the number of 
warnings is increasing so much regarding possible missile 
launches from the ground. You said there were 588 of those and 
some 9,648 infrared events. That is a lot to keep up with.
    General Raymond. It is a lot to keep up with.
    Mr. Cooper. How do we separate the wheat from the chaff 
here?
    General Raymond. It is a lot to keep up with. We have the 
world's greatest capabilities with SBIRS [Space-Based Infrared 
System] and DSP [Defense Support Program]. We have got the 
world's best airmen that are operating that. And one of the 
keys is that, when you are dealing with warning of potential 
missile attack to theater or potential attack on the homeland, 
you take that very, very seriously and put a lot of emphasis on 
it to make sure we do it perfectly.
    Mr. Cooper. Mr. Loverro, I would be interested--you made a 
pretty forceful statement about domain and protecting our 
domain.
    I would be curious, in the rhetoric of this and other 
administrations, is yours the most forceful statement or are 
you mirroring other rhetoric?
    Mr. Loverro. Yes, sir. I don't know if I want to call mine 
the most forceful, but it is certainly what I believe strongly. 
And I don't necessarily want to call it just pure rhetoric 
either. It is absolutely our intent.
    You know, it probably has been an evolving state of affairs 
because the threat has evolved. Quite frankly, it is one thing 
to anticipate an imaginary threat. It is another thing to see 
that threat develop, watch it be exercised, as we have on the 
Chinese on several occasions, recognize what it can do to our 
capability, and react to that.
    And that is what we are doing right now, is reacting to it 
and making it very clear. We have no desire to have a conflict 
extend to space. That is not in our interest. We don't believe 
it is in the interest of anybody on the face of the planet.
    We want our potential adversaries to understand that, if it 
does, the U.S. will be prepared to defend our space assets. 
Attacking our space assets is not a way to get the United 
States to back off of a fight.
    We are going to make sure that space assets are there to 
support the men and women that General Hyten and General 
Raymond have talked about so we can do the job that you have 
asked us to do.
    Mr. Cooper. Finally, Mr. Weatherington, you mentioned the 
terrific recapitalization problem that we are about to face. A 
generation or two earlier we had huge nuclear investments that 
we are struggling to be able to recapitalize right now.
    And it would be great to have some sort of early warning 
system for how many years we need to be planning recap for our 
space assets. So I hope you can help us with that.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank the gentleman.
    And I want to recognize Ms. Sapp, who has made it. I want 
to apologize to her for the moving target of start time, but we 
are at the mercy of the leadership and when they call votes. 
But I do appreciate you being here. We did accept your opening 
statement for the record already.
    [The opening and prepared statements of Ms. Sapp can be 
found in the Appendix beginning on page 103.]
    Mr. Rogers. Now I will recognize the gentleman from 
Colorado, Mr. Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And thank you all for being here and for your service to 
our country in various ways.
    General Hyten, we talked earlier today about an issue I 
would like to ask you a little bit more about, the Air Force 
space-based weather collection program. And I am concerned 
about the future planning.
    In October 2014, in response to a congressional-directed 
report, there was a briefing by the Air Force that stated, 
``DOD does not currently rely on nonallied international 
sources for environmental data, but may be required to do so as 
early as 2017 due to EUMETSAT's recent decision not to replace 
Meteosat-7.''
    I have another memo on this topic that was written just 
last month by the Air Force. It states, ``New information has 
come to light that demonstrates an unacceptably high risk for 
relying on civil and international sources.''
    And the memo further states, ``While China and Russia have 
mature technical systems, recent events indicate they present 
unacceptable security and operational risk. This dependency, 
particularly over the USCENTCOM [U.S. Central Command] area of 
responsibility, provides an unnecessary risk to U.S. operations 
and American lives.''
    So, actually, my first question will be to Mr. Loverro. But 
thank you for the discussion that we had earlier, General 
Hyten.
    Mr. Loverro, should we be creating new reliances on China 
and Russia for weather data for our warfighters?
    Mr. Loverro. Mr. Congressman, I like the fact that you 
started off with General Hyten first, so----
    No. This is a very complex issue. But let me make one thing 
very clear before I answer in detail. The DOD has no intent, no 
plans, and has no current reliance on Chinese or Russian 
weather satellites. We do not have it today. We will not have 
it in the future. That is not where we are heading.
    We had a conversation with this committee 2 years ago on a 
problem with satellite communications in that regard. We fixed 
that. And thank you very much for helping us do that. We are 
not going to go ahead and repeat that error with the weather 
satellites.
    Now, we do have an issue. What we are talking about is 
geosynchronous weather prediction and monitoring. That is not 
primarily a DOD mission. That is a NOAA [National Oceanic and 
Atmospheric Administration] mission for which the DOD uses 
their capabilities.
    And NOAA makes arrangements with other international 
capabilities around the world. The one you mentioned, EUMETSAT, 
has been our partner in the Indian Ocean for many years.
    Because of the kind of budget problems the Europeans have 
been having, they are having a hard time trying to fill that 
gap. And they in the World Meteorological Organization have 
decided that, for civilian purposes, that organization would 
like to use indigenous capabilities, which includes Chinese and 
Russian and Indian satellites.
    We right now do not--I cannot tell you today how we will go 
ahead and address this gap. We are working with NOAA. I met 
with them just last week along with the folks from Air Force 
A3, who wrote the letter that you quoted from, to figure out 
how we can move forward.
    NOAA has several alternative plans that they are examining. 
Some of them are to move another European satellite, EUMETSAT-
8, over to the region. There are other capabilities that we 
might look at. And I also visited India 2 weeks ago to start 
the conversation with them about Indian satellites.
    So there are several alternatives that we are looking at. I 
cannot tell you what the answer is today. But let me make it 
clear, once again, we do not intend to, we have no plans to, we 
will not rely on Chinese and Russian satellites.
    Mr. Lamborn. Well, that is a concern. Also, cost is a 
concern. With constrained budgets, we have to make every dollar 
count. I understand that. But getting the maximum capability 
out of our existing constellation is also a concern.
    Mr. Loverro. Yes, sir. Yes, sir. No. Absolutely. And, you 
know, today that is not a mission that the DOD flies. So as we 
look at that gap and we examine how we need to fill that, we 
will have to assess whether or not there is something the DOD 
needs to invest in or simply get NOAA to invest in. It is one 
of those issues that is developing as we speak. I wish I had an 
answer for you today. We know it is an issue.
    Mr. Lamborn. Okay.
    Mr. Loverro. We are following it.
    Mr. Lamborn. All right. Thank you.
    And let me--General Hyten, let me try to work in one--well, 
I am going to have to wait for a second round, I am afraid.
    I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now goes to Mr. Garamendi from California for 5 
minutes.
    Mr. Garamendi. I thank you, Mr. Chairman.
    And, gentlemen and ma'am, thank you very much for being 
here.
    I guess this goes to Mr. Loverro and probably Mr. 
Weatherington and Mr. Cardillo.
    What are the opportunities to leverage the growing 
commercial capabilities, services, for example, Skybox and 
Planet Labs? And how long will it take for the U.S. Government 
to replicate those assets or to use them?
    So start at the right or the left. Let's start over here.
    Mr. Loverro. Why don't I deal with the general, and then I 
think Mr. Cardillo is better suited to answer the specific 
questions.
    So, sir, you are absolutely right. We have a great 
opportunity here. As the DOD budget shrinks and as we focus 
more on the security of space, we need to figure out how to do 
things smarter. One of the smarter things we can do is to 
leverage the commercial field far better.
    There are certainly two areas where the commercial field is 
burgeoning, mostly the U.S. commercial field, which is great 
for us and our Nation's industry. You mentioned one of them, 
commercial imagery, Skybox, Planet Labs. There are about 20 
names out there, all of which will try their hand at trying to 
figure out how to revolutionize this field, as well as our 
tried and true providers, like Digital Globe.
    The commercial SATCOM [satellite communications] world is 
just as exciting. While we still have the legacy of 40 or 50 
years of commercial SATCOM, we have a whole bunch of new 
entrants, from the likes of Elon Musk to many others. We are 
looking at new constellations and new configurations. All of 
these can provide capability. We need to figure out how to 
leverage them better.
    Let me turn over the specifics, maybe, to Mr. Weatherington 
or Mr. Cardillo.
    Mr. Cardillo. First, I couldn't agree more with the 
opportunity that is before us. I can't answer your specific 
question about exactly when. I can just tell you we are fully 
engaging with each.
    And I should also say, too, I am a huge commercial imagery 
consumer today. I just use it for what we call our foundation 
mission. This is mapping, charting, geodesy, so the baseline 
products upon which we then apply NRO's capabilities to provide 
that exquisite level of intelligence and information. And I can 
give you more examples about that in closed.
    But we are fully engaged with the companies that you just 
mentioned to explore. We are looking to do pilots and test beds 
to be able to answer your question, and we will keep you fully 
informed.
    Mr. Garamendi. Good. I am going to go to another series of 
questions. I know my colleague to my right here has this issue, 
and he will pick it up, I am sure, in just a moment.
    I want to go to the vulnerability of the GPS system and 
should we have a backup system available to us, specifically 
the eLoran program. And it is maybe $50 million to put it in 
place, another $10 million a year to keep it going.
    Should we move forward with such a backup system?
    I will start--you are nodding your head, Mr. Loverro.
    Mr. Loverro. Yes, sir. So we have had a lot of discussion 
of this within the DOD. Our fiscal year 2016 budget includes an 
initial investment into eLoran, as you are aware. We do believe 
that is a good idea.
    However, it is not a panacea. It is great for backing up 
the use within the continental United States. For civilian use, 
however, eLoran, as currently configured, is not nonspoofable. 
It doesn't extend around the world. It doesn't meet the needs 
of our warfighters. So, absolutely, for civil concerns, it is a 
good solution.
    But from DOD concerns, we need to do more. We are doing 
more. We are investing significantly in anti-jam capabilities 
both on the satellites, in our user equipment. We, in fact, 
accelerated--part of that $5 billion investment that I talked 
about was a large acceleration of nonspoofable, nonjammable 
user equipment that the Air Force will be building for the new 
GPS signals.
    We are also in talks with our allies. Galileo, Japan and 
their Quasi-Zenith satellite systems, these are other systems 
that perform the same functions, are separate from GPS, yet 
perform a capability. We are looking very strongly at how do we 
leverage those as a backup as well.
    Because for military use, we do need that worldwide or at 
least regional overhead system that we can't get from the 
eLoran system which basically provides two-dimensional timing 
and navigation, but doesn't really help us in the three-
dimensional overseas world that we fight in.
    Mr. Garamendi. Thank you. I appreciate all of that.
    Also, the Coast Guard is interested because it does go 
about 1,000 miles off the coast. And so it is useful in many 
different ways.
    Mr. Loverro. Absolutely agree.
    Mr. Garamendi. Thank you.
    I yield back my remaining time.
    Mr. Rogers. Thank the gentleman.
    The Chair now recognizes the gentleman from Oklahoma, Mr. 
Bridenstine, for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    And thank you to our distinguished panel for being here.
    General Hyten, I have heard you comment in the past that we 
need to get past the days when we think about military 
satellite communications and commercial satellite 
communications. Just start talking SATCOM.
    One of the parts of the last NDAA [National Defense 
Authorization Act] that we did, we had section 1603, and it 
specifically asked the Department to look at the idea of having 
SMC [Space and Missile Systems Center] as the single 
acquisition agent for space.
    My question for you is: In your best professional military 
judgment, is having a single acquisition agent for space 
necessary to get the architecture to include both mil 
[military] and commercial satellite communications 
capabilities?
    General Hyten. Well, thanks very much for the question, 
Congressman.
    So, in my judgment, it is essential that there is a single 
point in the Department of Defense, a single agency in the 
Department of Defense, that is responsible for integrating how 
we provide SATCOM. If we have multiple agencies that are 
looking at buying and leasing capabilities, we will never have 
a fully integrated, most cost-effective, most military-useful 
capability to do that.
    And so you asked me about SMC. I think the Department is in 
agreement that we need to have a single place that does that. 
From my judgment, the best place to do that is in Los Angeles 
at SMC because that is where the bulk of military satellite 
communications is procured. So if you have the bulk of a single 
procurement agency in one place, it makes sense to look at how 
you integrate those.
    Now, the Department as a whole is still looking at that. We 
owe you an answer to that 1603 language. We will work that. But 
you asked my opinion, and I am glad to give it. Thank you.
    Mr. Bridenstine. Thank you, General.
    Mr. Loverro, section 1603 of the fiscal year 2015 NDAA also 
requires the DOD to revise the Executive Agent for Space's 
directives and guidance with respect to SATCOM strategies, 
architectures, and programs and, also, a report on reforming 
the SATCOM organizational structure.
    Can you briefly describe where you are in that process and 
when we might be able to see that report.
    Mr. Loverro. Yes, sir. I would be glad to.
    So both the CIO's office, our chief intelligence officer's 
office, and our acquisition, technology, logistics office--
excuse me--chief information--thank you--and our acquisition, 
technology, and logistics organization--not Mr. Weatherington's 
office, but another sector of that--have been given the lead to 
answer that question.
    They have been convening a series of working groups in 
order to go ahead and look at it. I believe they have scheduled 
an interim brief to this committee on the 19th of April. I 
cannot tell you what the results are yet. I have not been 
personally part of that. But they are working on that.
    It comes at an opportune time. We are rewriting right now 
our DOD instruction on SATCOM management. In fact, I have a 
copy of it in front of me here as the draft. And so we will 
integrate that into the rewrite of this instruction as well as 
what Congress has directed us to do, which is to look at how we 
rewrite the EA [Executive Agent] for Space charter.
    Mr. Bridenstine. General Hyten, have you been part of those 
discussions or the planning process?
    General Hyten. We have not been part of those planning 
processes yet. Congressman, I fully expect to----
    Mr. Bridenstine. Okay.
    General Hyten. As you have said earlier, I have some strong 
opinions on that. I think the Department knows what those 
opinions are. Certainly Mr. Loverro does.
    Mr. Bridenstine. Okay.
    General Hyten. And so I fully expect to be brought in, as 
does the Executive Agent for Space, who happens to be the 
Secretary of the Air Force.
    Mr. Bridenstine. Okay. Mr. Loverro, I have got a minute and 
23 seconds left.
    Section 1605 of the fiscal year 2015 NDAA authorized a 
SATCOM pilot program using working capital funds.
    Can you share with us the status of that program, if there 
is anything we can do here on this committee to help assist 
with that.
    Mr. Loverro. Yes, sir. So we very much appreciate the help 
Congress gave us in authorizing those funds.
    Unfortunately, because of the way the pilots are 
constructed and the way working capital funds work, the match 
isn't 100 percent perfect. We are trying to work through it. 
But as I have shared with you previously, that is a very 
difficult match to make.
    I am not the financial wizard within the Department to be 
able to tell you how to modify that today. I am happy to go 
ahead and take that for the record and come back on a better 
way to do that.
    But we absolutely want to move forward on the Pathfinders 
that that was intended to fund. Those Pathfinders have been 
laid out. I think we are anxious to get started.
    Mr. Bridenstine. Thank you for that. I have 33 seconds 
remaining.
    General Hyten, speaking of the Pathfinders, if you could, 
for this committee--I think it is critically important that we 
get those Pathfinders funded. It doesn't appear that the 
President's budget request funded Pathfinder 2 or any of the 
other Pathfinders.
    Can you share with this committee with why the Pathfinders 
are so important.
    General Hyten. The Pathfinders are important for a number 
of reasons. The quick answer is that, if we are going to walk 
down the path where we leverage the commercial sector in the 
right way, we need to figure out the business models to do 
that. The Pathfinders are structured in order to do that.
    The Pathfinders also have the opportunity for us to test 
different capabilities. It is possible that we can work the 
protected tactical waveform inside a Pathfinder program and 
explore the operational utility of that before we actually have 
to make an operational decision.
    Those are the fundamental issues that make the Pathfinder 
so important.
    Mr. Bridenstine. Roger that.
    I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Arizona, Mr. 
Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you for being here, for your commitment to 
freedom.
    Lieutenant General Raymond, let me, if I could, direct a 
question to you, sir.
    As you may be aware, the Director of the Defense 
Intelligence Agency, Lieutenant General Stewart, at a House 
Armed Services Committee hearing on worldwide threats earlier 
this year said that ``China and Russia are developing 
capabilities to deny the U.S. use of space in the event of a 
conflict.'' And that is a quote.
    I mean, I find that pretty sobering and having implications 
of a pretty profound nature. And it seems to me the United 
States is facing the most challenging environment we have ever 
seen in space.
    And I would like to ask you directly: Would you agree that 
this is the most challenging space environment we have seen?
    General Raymond. Yes, I would. I would agree. I think the 
threats are real. I think they are technologically advanced and 
they are concerning.
    Mr. Franks. All right. Well, if I could, then, turn to Mr. 
Loverro and Mr. Weatherington.
    As you also very likely know, previous congressionally 
mandated commissions have reported on the value of setting up a 
major force program [MFP] in the budget structure itself for 
space. And I am aware that a virtual MFP was set up, but I am 
not sure that it truly provides the benefits the commissions 
were originally seeking.
    What is your position on the benefits and challenges of 
establishing a true MFP with centralized authority for space? 
And, beyond an MFP, do you think that it is important that we 
evaluate all aspects of the national security space, not just 
the capabilities and development, but, also, organization, 
management, policy, doctrine, training, to strengthen national 
security space within the Department of Defense? And, if so, 
what are we doing about that?
    Mr. Loverro. Yes, sir. As Secretary Carter testified during 
his confirmation hearing, we do intend to go ahead and look at 
the organization of space within the DOD.
    An MFP, a major force program, may or may not be an 
important step, but I think that is putting the cart before the 
horse, quite frankly.
    I think we need to figure out what, if any, organizational 
changes do we need to make and then find out if an MFP is 
necessary to have that organization function in much the same 
way we stood up SOCOM [Special Operations Command] and then 
decided we need an MFP-11, not vice versa.
    So I would say we need to do our study first. Secretary 
Carter has committed to doing that. We intend to do that. And 
then we can come back to you and tell you whether an MFP is 
necessary in order to go ahead and enhance the capability of 
that structure.
    Mr. Franks. Mr. Weatherington, could I ask you to address 
the same question.
    Mr. Weatherington. Congressman, I really can't add anything 
more than Mr. Loverro just commented on. I mean, it is really--
you know, the acquisition organization supports the warfighter, 
and we align with the policy decisions.
    So once we have made this decision on the organizational 
structure, then we can align the resources to whatever that 
organizational structure is, assuming there are any changes.
    Mr. Franks. And so, therefore, it is your perspective and 
testimony that the original congressionally mandated 
commissions--do you think that the MFP that was set up on sort 
of a--do you think that that is actually what they were looking 
for? I mean, in other words, just a virtual MFP, is that what 
they were looking for?
    Mr. Weatherington. Sir, you are asking me to interpret the 
intent. I can tell you from the Department's perspective that 
we can provide the oversight responsibilities of your committee 
with where every dollar in the space enterprise is going.
    Now, whether that was the original intent, I mean, that--as 
Mr. Loverro said, Secretary Carter took this on. We are working 
this very hard, and we will have a response back this summer.
    Mr. Franks. All right. And, Mr. Loverro, not to belabor the 
subject, but you think that this--you know, again, 
congressionally mandated commission, do you think that you have 
satisfied that requirement?
    Mr. Loverro. Sir, I think both the Rumsfeld Commission and 
the Allard Commission, as we call them, both had many 
recommendations about how to go ahead and improve space 
organization management.
    Many of those recommendations were implemented. MFP-12 that 
they recommended was part of some of those recommendations. We 
certainly did not execute all of the recommendations for those 
commissions, and a lot has changed since then.
    While I think those were both valuable studies, I really do 
think in today's world, where we see a different threat than 
was present in 2000 or 2006, we really need to look at the 
question again.
    Mr. Franks. All right. Well, thank you.
    Quickly, Ms. Sapp and Mr. Cardillo, as you know, previously 
the director of the NRO was also the Under Secretary of the Air 
Force, and those days are gone.
    But do you believe it is important to have appropriate 
integration in this warfighting domain between this so-called 
white and black space or unclassified and classified space 
committees? And what is being done to strengthen this 
integration? And are there opportunities for improvement?
    Ms. Sapp. I think we have a great relationship. As you 
said, we think the threats in space are very real, and that is 
across white and black space. We have a great relationship with 
General Raymond and General Hyten. We do joint exercises, joint 
games. We have linked our op [operations] centers. So there is 
a very, very close relationship there.
    Mr. Franks. All right. And, Mr. Cardillo, would you like to 
take a shot at it?
    Mr. Cardillo. No. I am a customer of that relationship. So 
I am good.
    Mr. Franks. All right. All right. Thank you all very much.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    The Chair now recognizes the gentlemen from Colorado, Mr. 
Coffman, for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    Well, first of all, I think the GPS system is incredible. 
As somebody who served on the ground when it was first 
introduced at least to us on the conventional level during the 
first gulf war, it was an extraordinary asset.
    What are the challenges right now? I know synchronization 
is one of them with other systems. But what are some of the 
challenges we have in terms of upgrading and updating the GPS 
system?
    General Hyten. So, Congressman, I will go ahead and answer 
first, and then we will open it up across the board.
    But I think there is two big challenges we really face now 
with GPS--actually, three. One is the satellite piece of it. 
The other is the ground command and control piece. And the 
final one is the user equipment piece. Those three elements 
have to be synchronized.
    We are actually very close to having those in line right 
now. But on the ground segment, we have a program called OCX, 
the new operational control segment for GPS, that we are moving 
into the future with. The challenge there is that that 
capability is required to provide us the information assurance 
capabilities that we need to defend our system against the 
cyber threat.
    The GPS system today has external interfaces into 35 
different organizations in the world. Each of those interfaces 
go out into the world. We have to tighten those down and 
protect them. That is one of the biggest concerns I have with 
GPS, in general.
    And then, as we go forward in the user equipment, we need 
to figure out how to take advantage of the anti-jam 
capabilities, the various capabilities that Mr. Loverro talked 
about earlier, and the new satellite systems have to be able to 
provide the signal structure that will allow that.
    So if you put those three things together, it is a 
complicated problem, but one that we are making good progress 
on.
    Mr. Coffman. Thank you. Anything else?
    Thank you, Mr. Chairman--oh. Sorry. Go ahead. Yeah.
    Mr. Weatherington. Congressman, the only thing I would add 
to General Hyten's remarks are last month Mr. Kendall 
personally led a deep dive on the OCX activities, that it has 
got significant attention at both the Air Force and the AT&L 
[Acquisition, Technology, and Logistics] level. We are tracking 
that progress very, very closely because OCX is really critical 
to the next capability set that GPS is going to provide. And, 
for now, we believe we have a plan to execute that program and 
deliver that capability.
    Mr. Coffman. Okay. Mr. Chairman, I yield back. Thank you.
    General Raymond. Could I jump in and say one thing?
    Mr. Coffman. Please.
    General Raymond. I just wanted to say thanks for that 
question. The GPS constellation is a national treasure. General 
Hyten talked about the launch occurring.
    I will tell you that on that we have made first contact 
with the satellite that was launched today. That will continue 
to provide 24/7 navigation with the other satellites that are 
up there. And we are completely integrated with those forces in 
theater to make sure that they have the precision navigation 
timing that they need.
    Thank you.
    Mr. Coffman. Well, thank you.
    I was just a simple infantry guy for the Marine Corps. But, 
you know, to go from having a map and trying to figure out 
where you are in order to call in air support or artillery 
with, you know, sand dunes that are shifting, roads that don't 
exist, and all of a sudden, you know, to be able to, you know, 
get a grid coordinate, you know, within, at that time, probably 
100 meters was extraordinary.
    Thank you very much. I yield back.
    Mr. Rogers. Thank the gentlemen.
    We have been called for votes. But before we head out, Mr. 
Lamborn had something else he wanted to revisit. So he is 
recognized.
    Mr. Lamborn. Yeah. Thank you. And I will try to make this 
quick for everyone, although some, I am sure, will have to 
leave in a minute to vote before I finish, perhaps.
    General Hyten, last year we were briefed that the JMS 
program would be integrating and delivering advanced SSA [Space 
Situational Awareness] commercial capabilities in Increment 2 
of the program by the end of the calendar year 2016 to help 
detect and track these threats.
    Is the Air Force's JMS program still on track with this 
Increment 2 delivery schedule?
    General Hyten. So the JMS program is making good progress. 
If you go to Vandenberg today--and General Raymond sees it 
every day, at least every day he is at Vandenberg. He sees the 
capabilities coming in.
    And the commercial elements of that are a very important 
element. In fact, the commercial element really is the visual 
display capability and the user interface into that system.
    And so we have taken tremendous advantage of commercial 
capabilities in Increment 2. We plan to take even further 
advantage of those capabilities in Increment 3. But we are 
making great progress with the Joint Space Operation Center's 
mission system.
    Mr. Lamborn. Do you believe it is on schedule?
    General Hyten. Right now those capabilities are on 
schedule. Right now we are getting ready to deliver--Service 
Pack 9 is the element that is being delivered.
    And the reason that is an important element is because that 
is the delivery that will eliminate--or develop the new catalog 
that eliminates the reliance on the old SPADOC [Space Defense 
Operations Center] system that was built in the mid-1990s, and 
we need that to move forward in the future.
    General Raymond. Sir, I would just add I agree. It is on 
the operations floor today in increments. It is delivering 
real-time capability today that is very useful.
    And like any other commander in any other domain, if you 
are going to conduct operations, you have to have the ability 
to command and control, and this is the key to that for me.
    Mr. Lamborn. Okay. Thank you very much.
    And, lastly, Mr. Loverro, I wrote section 913 of the fiscal 
year 2013 NDAA.
    And on the European code of conduct, will the Department of 
Defense issue any manner of guidance or instruction to the 
military, to our military, if the President were to sign this 
or a similar code of conduct?
    Mr. Loverro. Yes, sir. Thank you for the question.
    So we have been--my office is the lead for the Department 
of Defense on the code of conduct, working very closely with 
the Joint Staff, and we have worked very closely with the 
Department of State as well.
    We would indeed issue implementing guidance if we decide to 
go ahead and subscribe to the code of conduct. We are working 
very vigorously to make sure that what gets signed is something 
that we absolutely can live with.
    We will not sign a code we cannot live with, and we will 
issue implementing guidance so it is very clear what the 
responsibilities of the United States DOD is with regard to 
that agreement.
    Mr. Lamborn. Well, I am really concerned because, on the 
surface, a code of conduct would be nonbinding. Isn't that 
correct?
    Mr. Loverro. It is absolutely correct. Not legally binding. 
We have many such agreements between nations.
    What the code of conduct does is it sets out rules of 
behavior that good citizens in the domain follow. It really 
helps us to distinguish who are good citizens and who are not.
    Mr. Lamborn. Yeah.
    Mr. Loverro. You know, sometimes it seems like that doesn't 
mean much. But I can tell you, for example, as you are well 
aware, in 2007, the Chinese, of course, demonstrated their ASAT 
[anti-satellite weapon] capability and blew apart a satellite, 
which now----
    Mr. Lamborn. Oh.
    Mr. Loverro [continuing]. General Raymond used to do.
    But in the latest one they didn't mostly because of the 
condemnation of the world, not because there was anything that 
prevented them from doing it legally.
    Mr. Lamborn. Well, my concern is something on the surface 
would be nonbinding, but through you issuing a guidance for the 
employment of force instruction, a GEF instruction, it becomes 
binding upon the military.
    And so, as a Congressman, I am concerned about the 
interaction between the executive branch and Congress, and this 
is something that would not be submitted to the Senate for 
treaty ratification and could be viewed as kind of an end run 
around Congress.
    Mr. Loverro. Mr. Congressman, if I could take that for a 
closed session, I can, I think, provide you a more nuanced 
answer on how this will work.
    Mr. Lamborn. Okay. Thank you very much.
    Mr. Chairman, thank you so much.
    Mr. Rogers. I thank the gentleman.
    We have been called for votes. And we are going to recess 
until approximately 6:50, when we will reconvene in the closed 
session next door in 2216.
    [Whereupon, at 5:58 p.m., the subcommittee proceeded in 
closed session.]

=======================================================================




                            A P P E N D I X

                             March 25, 2015
     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 25, 2015

=======================================================================

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

 
    
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 25, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. What are the major acquisition challenges regarding the 
development, deployment, and sustainment of space systems?
    What plans are in development and/or in place for addressing these 
challenges?
    General Hyten. We continue to improve in addressing affordability 
in the acquisition of space systems. We are actively pursuing revisions 
to our processes on how we acquire the space enterprise to include our 
satellites, ground systems, and launch services.
    To improve our satellite acquisitions, we are implementing the 
Better Buying Power 3.0 (BBP 3.0) initiatives instituted by USD/AT&L. 
BBP 3.0 represents the Department's new increment of process 
improvement efforts intended to increase the buying power across all 
weapon systems. In satellite acquisition, we are adapting contracting 
strategies, such as the use of fixed priced contracts to not only 
control costs, but to also reduce the requirements creep common to cost 
reimbursable contracts. To that end, we are also pursuing initiatives 
to better define the government's role in owning the technical baseline 
of our contracts, such as identifying critical interfaces and required 
data rights.
    Space ground systems will continue to provide the information 
pathway to and from orbit for our systems. A major ongoing effort is to 
create a common ground architecture that can communicate with multiple 
satellite systems. Such a ground system would leverage modular and open 
architectures to increase resiliency, and will significantly reduce the 
lifecycle cost by providing common operations across multiple mission 
areas.
    In the launch enterprise, we are encouraging competition to 
invigorate the industrial base and eliminate sole source procurements. 
As a part of this effort, we are streamlining the certification process 
for potential new entrants. We are also taking a competitive approach 
to mitigating reliance on foreign entities with regard to our launch 
capability to maintain the United States' assured access to space.
    In support of all of these initiatives, we are reevaluating how we 
manage risk. As we move forward and prepare for tomorrow's threat 
environment, we must focus on modernizing our constellations. In the 
past, we focused on minimizing the cost and schedule risks to our large 
programs by producing near copies of our development assets. Moving 
forward, we must continue to minimize the cost and schedule risks, but 
modernize our systems by smartly planning for incremental upgrades/
improvements to our systems. Within the space enterprise, we are 
preparing for the future through the Space Modernization Initiative or 
SMI. SMI is a disciplined approach to planning for the system 
modernization of our largest programs by investing early in technology 
maturation to minimize future obsolescence and maximizing the 
warfighting utility of our existing systems. SMI is critical to the 
future of our weapon systems in order to ensure our systems are 
resilient against future threats. However, SMI is constantly in the 
cross hairs in a constrained fiscal environment. Our biggest challenge 
going forward will be being able to smartly prepare for tomorrow 
through SMI while simultaneously ensuring the capabilities we deliver 
today remain world class.
    Mr. Rogers. The Advanced Extremely High Frequency (AEHF) and Space 
Based Infrared System (SBIRS) programs are in the process of assessing 
options for future systems through Analyses of Alternatives (AOAs). 
Both programs face the reality of making acquisition decisions for 
future systems within the next several years. However, the AOA efforts 
have experienced delays.
    a. To what extent will the AOA delays affect the DOD's ability to 
make informed acquisition decisions?
    b. When do decisions need to be made for how to proceed with 
satellite systems, such as AEHF and SBIRS?
    General Hyten. Answer for AEHF: a. Service and acquisition 
authority representatives have participated extensively in the 
Protected Satellite Communication Services (PSCS) AOA, and are familiar 
with the findings. This knowledge has been factored into the Air Force 
FY16 President's Budget (PB) request planning efforts to ensure we 
remain consistent with the likely outcome of the AOA. MILSATCOM 
acquisition plans and schedules allow time for results of the PSCS AOA 
to inform decisions for input to the FY17 PB.
    b. Protected MILSATCOM capability need dates are driven by the need 
to sustain current capabilities (EPS, MILSTAR and AEHF services), and 
to satisfy new mission needs for which existing capabilities are 
inapplicable or insufficient.
    c. Acquiring a new military satellite system with a traditional 
approach normally takes about 10-12 years from initial program 
directive, including satellite development and launch, and even 6-8 
years for systems only involving ground assets. We need to explore 
alternative approaches otherwise decisions are needed by early 2016 for 
the Polar SATCOM Follow-on and to enable timely fielding of protected 
tactical SATCOM capabilities.
    Answer for SBIRS: a. The AoA is nearing completion and will be 
undergoing Departmental deliberations this summer. This timing has no 
negative effects on the DOD's ability to make an informed acquisition 
decision for the SBIRS Follow-on program. In fact, this completion date 
is ahead of the need date in the first quarter of FY16 (shown on page 
9, Figure 1 of the Air Force Congressional Report Space Modernization 
Initiative (SMI) Strategy and Goals, dated April 2014). While the AoA 
team's final report submission was delayed from the originally planned 
December 2014 goal, the delay allowed completion of comprehensive and 
accurate analysis of the architectural alternatives. The DOD and the 
Air Force are poised with the necessary analysis to support the SBIRS 
Follow-on decision and planned program start in FY18.
    b. As described in the April 2014 SMI Congressional Report, the 
SBIRS Follow-on program must be started in FY18 to allow timely 
replenishment of the SBIRS constellation. Allowing for appropriate 
acquisition planning lead time, the final architectural decision for 
the SBIRS Follow-on program is required by the end of FY16, at the 
latest. The AoA completion earlier than the first quarter of FY16 
allows the DOD to make the SBIRS Follow-on decision earlier and allows 
more time for deliberate planning of the acquisition strategy.
    Mr. Rogers. What are the plans for the Operationally Responsive 
Space program office?
    General Hyten. Consistent with the FY14 ORS Report to Congress the 
ORS Office will be maintained to execute critical Urgent Needs as 
identified by USSTRATCOM and approved by the Executive Committee. In 
FY15, the ORS Office will test the ORS-4 Super Strypi experimental 
launch vehicle and will continue the development of the ORS-5, Space 
Situational Awareness operational demonstration satellite, in 
conjunction with SMC/SY. The 22 April 2015 EXCOM approved the ORS 
office to mitigate gaps in space based environmental monitoring. The 
ORS Office and SMC/RS will jointly execute the program. Funding will go 
to the AFSPC Weather Mission program element. The program will address 
two JROC validated capability gaps: the 2015 gap for ``Ocean Surface 
Vector Winds'' and the 2021 gap for ``Tropical Cyclone Intensity.'' 
SMC/RS will pursue the most responsive option to minimize the impending 
gaps which is expected to be a passive space-based microwave solution 
as the operational gap filler. The program team will also work with 
USSTRATCOM and Joint Staff to prioritize the requirements for the 
program by June 2015. Lifecycle Sustainment will be addressed by SMC/
RS. These programs are consistent with the stated AFSPC goal of 
integrating the principles of operationally responsive space into AFPSC 
missions.
    Mr. Rogers. Several systems continue to experience synchronization 
problems (such as Global Positioning System [GPS] III, GPS Next 
Generation Operational Control System, and Military GPS User Equipment; 
Advanced Extremely High Frequency satellites and Family of Advanced 
Beyond Line-of-Sight Terminals; Mobile User Objective System and the 
user terminals; and the Space Based Infrared System and its supporting 
ground system). What is being done to avoid these alignment issues in 
the future? What have the opportunity costs been as a result of these 
delays?
    General Hyten. Answer for Global Positioning System [GPS] III, GPS 
Next Generation Operational Control System, and Military GPS User 
Equipment:
    Through the GPS Enterprise Integrator, the Air Force executes 
rigorous systems engineering and integration, synchronizing GPS 
capabilities to ensure programs meet warfighter requirements and 
identifying mitigation steps when synchronization fails. Delays to the 
delivery of the GPS III satellites and the GPS Next-Generation 
Operational Control Segment (OCX) have challenged synchronization, but 
mitigation efforts are being executed. For example, incremental 
deliveries such as the OCX program's Launch and Early Checkout System 
(LCS) will support the first GPS III satellite launch and its checkout 
expected in FY17. Furthermore, battery life extension on the GPS IIR 
satellites extended the health of the current constellation and has so 
far avoided any opportunity cost from the OCX/GPS III delay.
    An additional effort to synchronize the GPS Enterprise is the 
acceleration of the Military GPS User Equipment (MGUE) program to 
ensure new anti-jam capabilities offered by the M-Code signal can be 
used at the earliest possible time. The M-Code signal is currently 
transmitted by 7 GPS IIR-M and 9 GPS IIF satellites (for a total of 16 
M-Code transmitting satellites), nearing the necessary 18 satellites 
for 24-hour coverage. Today, the GPS system is broadcasting a 
modernized GPS test message that supports this MGUE acceleration by 
enabling early risk reduction events and operational demonstrations. 
The live-sky test signals also support critical space, ground, and user 
equipment development, integration and testing for the new civilian 
signals, L2C and L5. Since MGUE is ahead of schedule, there has been no 
opportunity costs associated with the user equipment.
    Answer for Advanced Extremely High Frequency satellites and Family 
of Advanced Beyond Line-of-Sight Terminals:
    The Family of Beyond Line-of-Sight Terminal (FAB-T) is the planned 
command and control terminal for the Milstar and Advanced Extremely 
High Frequency (AEHF) satellite constellation. FAB-T development 
experienced technical difficulties leading the Department to open the 
production contract to competition. The competition led to lower cost 
terminal, however the fielding date was delayed. The AEHF Program 
currently delivers EHF capability to the warfighter through the Navy 
Multiband Terminal and the Army's Secure Mobile Anti-Jam Reliable 
Tactical Terminal and all legacy Milstar terminals. The National 
Security Satellite Communications Systems Synchronization Roadmap 
indicates that the AEHF terminal fielding is synchronized with AEHF 
Initial Operational Capability (IOC). 20% of Extended Data Rate (XDR) 
capable terminals were fielded in FY13 (2 years before IOC) and 49% of 
AEHF XDR capable terminals will be fielded by the AEHF IOC date this 
summer.
    The opportunity costs associated with the delay of FAB-T fielding 
are difficult to accurately quantify. A FAB-T delay forces a risk due 
to reliance on current, hard to maintain, and poor performing systems, 
which increases operational risk. However, the delay did require the 
AEHF Program to develop an interim constellation command and control 
terminal. The program modified the planned design for AEHF Calibration 
Facility test terminals to meet nuclear hardening and operational 
suitability requirements. The AEHF Program produced and delivered six 
Interim Command and Control (IC2) terminals, which cost $50M to develop 
and $6M/year more to maintain than a FAB-T terminal.
    Answer for SBIRS:
    After overcoming early satellite and ground development delays, 
SBIRS has established a stable ground baseline and stable production 
delivery schedules for GEO satellites 3 and 4 which has allowed for 
improved synchronization of the space and ground segments. The current 
SBIRS program is synchronized with final space and ground systems being 
delivered in FY18. Three of the five mobile survivable/endurable ground 
systems will also be operational by 2018. The two remaining are 
programmed in FY16 for delivery in 2020. Moving forward, the space and 
ground segments will remain synchronized as the future GEO 5/6 
production effort focuses on replenishment of the existing 
architecture.
    The opportunity costs related to ground development delays are 
difficult to accurately quantify. A portion of the planned ground 
capability had to be accelerated to provide interim operations to 
support the GEO 1 launch in 2011. This development was approximately 
17% ($334M) of the total contractual effort between 2008-2011 
($1,936M), the actual opportunity cost of the acceleration cannot be 
discretely identified from the development cost. Additionally, the 
interim on-orbit sustainment efforts have successfully extended the 
life of the DSP constellation which enabled avoidance of opportunity 
costs from the SBIRS delays. In addition, starter data has been 
provided to Battlespace Awareness (BA)/Technical Intelligence (TI) 
users since FY2014 and will be certified as an independent source for 
BA/TI by the National Geospatial-Intelligence Agency (NGA) in July 
2015.
    Mr. Rogers. When does the Air Force plan to finalize its 
acquisition strategy for the next phase, phase 2 starting in fiscal 
year 2018, of the EELV program? Please describe the options being 
considered for that strategy.
    General Hyten. During phase 2, the Air Force plans to transition 
off the Russian RD-180 by investing in launch systems that enable 
assured access to space by allowing the Air Force to acquire launch 
services from two or more domestic, commercially viable launch 
providers. The Air Force plans to use a four step plan that both 
invests in industry's emerging launch system development and procures 
the phase 2 launch services starting in FY2018. Step 1, the Technical 
Maturation and Risk Reduction addressing the highest technical risks 
associated with transitioning off the RD-180, is underway. The 
acquisition strategy for steps 2 and 3, which is the Government 
investment in industry's Rocket Propulsion Systems (Step 2) and the 
associated Launch Systems (Step 3), was signed by the Air Force Service 
Acquisition Executive on 5 June 2015. The development of the 
acquisition strategy for step 4, procuring the launch services starting 
in FY2018, will begin later this year. Therefore the final acquisition 
strategy for step 4 will likely not be approved in late FY2016 or early 
FY2017. Regardless, the goal of the strategy will be to assure access 
to space with two or more launch systems available at all times, while 
leveraging competition to the maximum extent possible.
    Mr. Rogers. With the delays of both GPS III and OCX, when does the 
Air Force plan to deploy Military code (M-code) signal capability?
    General Hyten. M-Code test and user equipment integration 
capability is available today, with 16 satellites broadcasting M-Code 
messages provided by a test capability attached to the ground system. 
The current estimate for the space segment to attain 18 satellites 
broadcasting M-Code is 4QCY2015 with GPS IIF-11. The ground segment 
full command and control capability (OCX Block 1) is scheduled for 
delivery July 2019. The Military GPS User Equipment (MGUE) is based on 
service schedules, however the first platform scheduled to complete is 
the B-2 in 2017.
    Mr. Rogers. Given the GPS III and OCX delays, what is the risk of 
not sustaining the current, as well as required, levels of GPS service, 
and what is being done about this risk?
    General Hyten. The required GPS level of service is at risk if 
capability is not delivered by the constellation sustainment need date. 
This date is currently driven by GPS III Space Vehicle 01 (SV01) 
entering the operational constellation, which requires GPS III SV01 to 
be ready to launch as well as having a ground system ready to launch, 
checkout, and operationally command the satellite. The GPS Next 
Generation Operational Control System (OCX) is under development to 
provide the ground launch, checkout, and command and control 
capability.
    The current schedules for both OCX Block 1 and GPS III SV01 project 
delivery in time to meet the constellation sustainment need date and 
maintain the required levels of GPS service. In the event of future 
schedule delays to the OCX Block 1 ground system, the program office 
initiated development of a short-term GPS III Contingency Operations 
capability that will enable interim on-orbit operation of GPS III 
satellites and reduce risk of diminished levels of PNT services should 
OCX Block 1 delivery be further delayed. Although the GPS III satellite 
development has been delayed more than 2 years, we are seeing progress 
and believe it will be delivered prior to the constellation sustainment 
need date with margin.
    Mr. Rogers. The Advanced Extremely High Frequency (AEHF) and Space 
Based Infrared System (SBIRS) programs are in the process of assessing 
options for future systems through Analyses of Alternatives (AOAs). 
Both programs face the reality of making acquisition decisions for 
future systems within the next several years. However, the AOA efforts 
have experienced delays.
    a. To what extent will the AOA delays affect the DOD's ability to 
make informed acquisition decisions?
    b. When do decisions need to be made for how to proceed with 
satellite systems, such as AEHF and SBIRS?
    Mr. Loverro. Both the Protected Satellite Communications (SATCOM) 
Advanced Extremely High Frequency (AEHF) and Space-Based Infrared 
System (SBIRS) Analyses of Alternatives (AoAs) will conclude this 
summer, and although this is later than originally planned, there has 
been minimal effect on the Department's ability to make informed 
acquisition decisions. Acquisition decisions for both follow-on 
capabilities will benefit from the additional comprehensive analysis of 
architectural alternatives. Military Department and capability 
acquisition representatives have participated extensively in both AoA 
processes, and they have used this knowledge to inform their Fiscal 
Year 2016-2020 President's Budget request submissions.
    Both AoAs will have concluded prior to the Department needing to 
begin making decisions on future acquisitions. Initial acquisition 
decisions are needed in early 2016 for a polar SATCOM follow-on 
capability and to enable timely fielding of protected tactical SATCOM 
capabilities. Based on constellation replenishment needs dates, the 
Department will need to make a decision for both the AEHF follow-on 
capability and the SBIRS follow-on decision to support program starts 
by FY2018.
    Mr. Rogers. What are the plans for the Operationally Responsive 
Space program office?
    Mr. Loverro. The Operationally Responsive Space Program Office will 
continue to provide a transformational way by which DOD designs, 
builds, and launches national security satellites. Specifically, the 
Program Office is intended to ensure rapid development and deployment 
capability for satellites in response to unanticipated needs and 
persistent threats in space. The FY 2016 DOD Budget Request requests 
$6.5M for the Program Office to continue its work on this mandate. The 
Air Force Space and Missile Systems Center is working with the Program 
Office to incorporate transformational concepts into its own 
acquisition and development processes, and retains the possibility of 
utilizing the Program Office to meet warfighter requirements on a rapid 
timeline if the need arises.
    Mr. Rogers. Several systems continue to experience synchronization 
problems (such as Global Positioning System [GPS] III, GPS Next 
Generation Operational Control System, and Military GPS User Equipment; 
Advanced Extremely High Frequency satellites and Family of Advanced 
Beyond Line-of-Sight Terminals; Mobile User Objective System and the 
user terminals; and the Space Based Infrared System and its supporting 
ground system). What is being done to avoid these alignment issues in 
the future? What have the opportunity costs been as a result of these 
delays?
    Mr. Loverro. The Department takes seriously all program delays and 
issues with systems synchronization. To address these issues and avoid 
them in the future, in late 2014 the Department conducted a 
comprehensive study to look at these programs and their associated 
synchronization issues. The study found that many of the 
synchronization issues are the result of insufficiently defined 
measures and processes for system alignment. To address these issues, 
the study provided standardized Department-wide metrics for whole-of-
system synchronization. DOD is now implementing a standard assessment 
of integration and synchronization efforts across the space portfolio 
to ensure that issues are addressed early in the development and 
acquisition process and are successfully resolved.
    Beyond the establishment of standard metrics of assessment, 
tangible mitigating efforts are being implemented to ensure future 
synchronization. For example, the Space-Based Infrared System is now 
operating on a stable delivery schedule for its third and fourth 
Geosynchronous Earth Orbit satellites, and the current program has 
effectively synchronized space and ground system development for 
delivery of additional capability in FY2018. Furthermore, a lack of 
synchronization between the Global Positioning System (GPS)-III 
constellation and its Next-Generation Operational Control Segment has 
largely been mitigated by extending the battery life on current GPS IIR 
satellites.
    Mr. Rogers. What are the major acquisition challenges regarding the 
development, deployment, and sustainment of space systems?
    a. What plans are in development and/or in place for addressing 
these challenges?
    Mr. Weatherington. The major acquisition challenges to space 
systems are driven by the increasingly contested space environment. 
With the emergence of new threats to satellite systems from China and 
Russia, resiliency has become a top requirement for our space 
architectures to ensure those capabilities will be there when needed. 
The need for resilience has driven the Department to examine a range of 
alternate future architectures for our space capabilities. The major 
challenge will be to transition to these more resilient architectures, 
across several mission areas, while maintaining current capabilities 
and services. Specifically, 1) our development and deployment timelines 
must be aligned with need dates, 2) our new architecture must, in some 
cases, be compatible with existing ground and user infrastructure, and 
3) our architecture decisions must be coordinated and synchronized 
across related mission areas. All of this must be accomplished against 
the backdrop of a challenged industrial base and constantly evolving 
threat environment.
    At the same time, the increase in both private sector and 
international activity in space provides opportunity. The Department 
may be able to achieve more of its space-based capability needs through 
agreements and collaboration with foreign strategic partners and 
emerging private sector space-based services. Fully exploring and 
leveraging these opportunities, however, will require increased 
acquisition agility to keep pace with the private sector decision 
timelines. We must also develop new approaches to risk management; 
putting sufficient safeguards in place to ensure national security 
objectives can be achieved even in the event of bankruptcy, strikes, 
partner nation budget fluctuations and other uncertainties.
    Mr. Rogers. The Advanced Extremely High Frequency (AEHF) and Space 
Based Infrared System (SBIRS) programs are in the process of assessing 
options for future systems through Analyses of Alternatives (AOAs). 
Both programs face the reality of making acquisition decisions for 
future systems within the next several years. However, the AOA efforts 
have experienced delays.
    a. To what extent will the AOA delays affect the DOD's ability to 
make informed acquisition decisions?
    b. When do decisions need to be made for how to proceed with 
satellite systems, such as AEHF and SBIRS?
    Mr. Weatherington. The delays will impact the DOD, but in a 
positive manner. Our experience gained from the recent AoAs have 
resulted in a higher level of collaboration and understanding across 
the DOD for these informational needs and various perspectives, and 
added attention to resiliency driven by increased threats. As part of 
the Department's decision process, insights from AoAs complement other 
important information derived from national security strategy and 
future challenges, relationships to future plans and programs, 
knowledge of current and projected capabilities and gaps, current and 
projected intelligence and threat assessments. The results of these 
AoAs should strengthen DOD's decision making process from the 
perspective of capabilities/needs assessment, PPBE, and acquisition.
    The SBIRS Follow-On AoA has completed the analysis phase and the 
Air Force is synthesizing the insights including cost, schedule, 
performance, and resiliency, to inform architectural deliberations 
across the Department this summer. Similarly, the Department expects to 
gain important insights from the Protected Satellite Communications AoA 
when its analysis phase concludes later this summer.
    The decisions for these systems need to be made by Fall 2015/early 
in FY 2016. More specifically, the formal acquisition decisions for the 
aforementioned systems depend on the selected architecture, functional 
availability analysis of the existing SBIRS, AEHF and Enhanced Polar 
System constellations, and the transition strategies from today's 
architectures to the future architectures. The results of the 
Department's deliberations this summer will inform decisions 
potentially as early as FY2016 and guide pre-acquisition activities in 
advance of formal program initiation.
    Mr. Rogers. What are the plans for the Operationally Responsive 
Space program office?
    Mr. Weatherington. The Department of Defense included $6.5M in its 
FY16 Budget Request for the Operationally Responsive Space (ORS) 
Office. The program office has a unique mandate and acquisition 
authorities to drive down cost and decrease delivery time for urgently 
needed space capabilities, thus enabling a broad range of replenishment 
and reconstitution options.
    Two examples where the Air Force looks to integrate ORS concepts 
are Weather System Follow-On (WSF) and Space Based Space Surveillance 
Follow-On (SBSS-FO). These candidate programs have well defined funding 
and requirements, good commercial small system concepts, and will 
benefit from streamlined acquisition authorities.
    The WSF program plans to use flight proven technologies and designs 
for a low risk solution to satisfy weather capability gaps. It also 
plans to utilize ORS contractual vehicles that allow for a responsive 
procurement of a commercial satellite bus and responsive acquisition 
practices to deliver the operational capability over two years sooner. 
The SBSS-FO mission is a cost-constrained program using mature 
``commercial-like'' technologies to meet a current space surveillance 
system end-of-life capability gap. It is utilizing technology from the 
prototype ORS-5 mission in order to provide reuse of government 
reference designs.
    Mr. Rogers. Several systems continue to experience synchronization 
problems (such as Global Positioning System [GPS] III, GPS Next 
Generation Operational Control System, and Military GPS User Equipment; 
Advanced Extremely High Frequency satellites and Family of Advanced 
Beyond Line-of-Sight Terminals; Mobile User Objective System and the 
user terminals; and the Space Based Infrared System and its supporting 
ground system). What is being done to avoid these alignment issues in 
the future? What have the opportunity costs been as a result of these 
delays?
    Mr. Weatherington. USD(AT&L) constantly strives to eliminate 
synchronization issues in our acquisition efforts. The Department 
determined the definition and metrics for ``synchronization'' across 
space mission areas did not exist. The Department is implementing a 
standard assessment of integration/synchronization across the space 
portfolio more closely integrated with the budget formulation and 
deliberation process. As Mr. Kendall indicated in his January 26, 2015 
letter to the congressional defense committees, the Department will be 
submitting an initial exemplar report covering a single representative 
program (Space Based Infrared System) in June 2015, and a comprehensive 
initial annual report with submission of the FY 2017 President's 
Budget. Additionally, this approach can be applied for future programs 
being approved at Milestone B in order to fulfill the statutory 
requirements contained in the FY 2013 NDAA.
    As Chairman Rogers noted, significant opportunity costs have 
resulted from the lack of synchronization. An example of this problem 
is the Mobile User Objective System (MUOS) waveform capable user 
terminals. The legacy transponder payload side of the MUOS satellite is 
being used for operations, but the full operational use of the MUOS 
satellites will not be possible until a significant number of terminals 
of different types are fielded. Synchronization of MUOS and the user 
terminals is highly complex and has significant challenges. Despite 
these challenges, the Navy, in close coordination with the Army, has 
successfully integrated the MUOS waveform with the Army's Handheld, 
Manpack, Small Formfit (HMS) Manpack terminal. As much as the 
Department has recognized the synchronization problems with MUOS, we 
have also identified synchronization issues in other space mission 
areas. In addition to the measures identified herein, the Department 
will continue to work diligently to close these synchronization issues 
across the space enterprise.
    Mr. Rogers. What is your perspective on the importance of having a 
capability to support urgent warfighter space requirements, as the 
Operationally Responsive Space office was intended?
    General Raymond. It is imperative that the warfighter has access to 
responsive space-based capabilities in this increasingly contested, 
congested and competitive space environment. The Operationally 
Responsive Space Office is a great asset that anticipates, and responds 
to, challenges within the space domain. The office also addresses 
urgent warfighter requirements that can be met with space-based assets, 
and helps us to extend our advantages in space and increase resiliency. 
The importance of having this capability will increase as the trend 
toward smaller operationally relevant CubeSats materializes.
    Mr. Rogers. Are there any space capabilities that you currently 
rely on from the Air Force, in order to most effectively and 
efficiently perform your mission? Please describe these capabilities 
and dependency relationships, the plan going forward, and the impact on 
the warfighter.
    Mr. Cardillo. [The information referred to is classified and 
retained in the committee files.]
    Mr. Rogers. What are the major acquisition challenges regarding the 
development, deployment, and sustainment of space systems?
    a. What plans are in development and/or in place for addressing 
these challenges?
    Ms. Sapp. The operating environment in which the NRO finds itself 
continues to grow in complexity. Targets are becoming increasingly 
vague and fleeting, and our adversaries are aggressively pursuing 
denial and deception techniques. They are developing capabilities to 
threaten our collection assets, and the pace of change is as rapid as 
it has ever been. Therefore, we must continually seek increasingly 
innovative approaches to keep pace and improve our capabilities. At 
NRO, we are thinking outside the box to create unusual or unexpected 
uses of existing sensor systems. Our adversaries continue to develop 
new and improved means to destroy our freedom of action in space, so we 
must develop collection systems with enhanced survivability built in 
from the beginning. We must also factor in affordability; we are 
designing architectures, systems, and technologies to increase 
intelligence collection value, to improve efficiency, and to reduce 
cost of ownership. Innovation enables us to meet these challenges and 
lead the world in intelligence dominance. To ensure that we are always 
on the leading edge with the newest technologies, the NRO has one 
office, the Advanced Systems and Technology Directorate (AS&T), focused 
on research and development. AS&T explores, tests, and develops, and 
transitions revolutionary new capabilities to our current and future 
architecture. AS&T hosts a variety of forums and collaborative research 
programs with industry, government, and academia, always searching for 
the most promising technologies. Another mechanism to address 
acquisition challenges is having a strong acquisition workforce, which 
applies best practices and maintains and close and enduring partnership 
with our industry partners. A critical NRO organizational asset is the 
Acquisition Center of Excellence (ACE). For the past 17 years, ACE has 
provided targeted acquisition training; acquisition support services; 
and helped to ensure open communications with industry. ACE provides 
vital acquisition support services to the NRO workforce, particularly 
for competitive acquisitions. It provides the facilities, tools, and 
support for competitive source selection processes. In doing this, ACE 
helps to ensure the NRO selects the best value solution to its mission 
requirements. Additionally, ACE provides a communication capability 
with our industry partners. Within the ACE is the Acquisition Research 
Center, which provides classified and unclassified web sites as portals 
for industry into NRO business opportunities, including upcoming 
solicitations and on-going acquisitions. The ARC allows industry to 
access data on upcoming NRO acquisitions and helps ACE reach a broader 
industry base for NRO's mission requirements. The ARC capability 
enables industry to communicate with the NRO early in the acquisition 
planning phase. This is extremely important since early industry input 
can help us revise our requirements to attract the widest industry 
interest.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. We know that civil agencies can get OPIR data, such as 
that from SBIRS, at a classified level. This is useful where those 
civil agencies can declassify the data. However, there are agencies who 
need the data, but who cannot declassify the data and/or who do not 
have appropriate clearances. What is the Air Force doing to advance 
policy and technical solutions that meet the civil needs for 
declassified OPIR data, such as for use in fighting forest fires in 
Colorado and other high-risk states?
    General Hyten. Air Force Space Command (AFSPC) is in the process of 
completing a review and updating our security classification guidance 
across all programs to ensure that we provided consistent guidance with 
the appropriate classification risk levels. Specifically, we are 
conducting a review and in the process of updating Space Based Infrared 
System (SBIRS) security classification guide. Today, AFSPC units 
provide OPIR data and reports to DOD and civil agencies where they are 
able to interpret the data and provide the appropriate context in 
conjunction with other data sources. In accordance with our current 
security guidance, when SBIRS derived products are combined with data 
from other sources, from areas where there is enough viable sources to 
provide plausible deniability, the end products would be unclassified.
    Mr. Lamborn. We have read the recent press about the Air Force's 
desire to turn Wideband Global SATCOM operations over to industry. How 
is the Air Force posturing itself to take advantage of this and other 
opportunities, such as enabling AFSCN connectivity to commercial 
antenna networks?
    General Hyten. Air Force Space Command (AFSPC) continues to explore 
opportunities to partner with commercial industry to provide 
uninterrupted space effects to the US warfighter. The initial space 
operation effort focuses on transitioning from purely military 
operations to a proper mixture of military and contractor personnel, 
with Global Positioning System (GPS) as the pathfinder. Additional 
potential manpower savings, either military or contractor can be gained 
through enhanced automation opportunities of ground command and control 
systems.
    Concerning the Air Force's desire to transition Wideband Global 
SATCOM (WGS) satellite vehicle operations from military operations to 
industry operations, AFSPC has not determined a specific timeline to 
potentially transition WGS Satellite operations from military to 
commercial industry. Lessons learned from GPS effort will inform 
decisions on future opportunities in other space capability areas.
    Concerning the Air Force Satellite Control Network (AFSCN), AFSPC 
conducted a preliminary study on AFSCN Commercial Provisioning, but 
there is more work to do. There is an independent review underway to 
explore broader options that could include AFSCN that should culminate 
later this year.
    Mr. Lamborn. The performance issues with Raytheon's OCX contract 
have been well documented, particularly in recent weeks. How is Air 
Force Space Command reducing risk and creating potential GPS III ground 
control requirement off-ramps should Raytheon continue to perform 
poorly?
    General Hyten. The Space and Missile Systems Center, Global 
Positioning Systems Directorate has initiated a short-term GPS III 
Contingency Operations capability development to allow GPS III 
satellites to support the constellation sustainment need date. This 
provides risk reduction in the event of late GPS Next Generation 
Command and Control System (OCX) delivery.
    On 9 February 2015, a Federal Business Opportunities (FBO) 
announcement was released for this activity. Anticipated contract award 
is in 2QFY16. The program office is also studying a long-term solution 
to provide executable options in the event an off-ramp is needed. The 
Air Force will balance the affordability of the current strategy versus 
the regrets of pursuing an off-ramp strategy.
    Mr. Lamborn. We know that civil agencies can get OPIR data, such as 
that from SBIRS, at a classified level. This is useful where those 
civil agencies can declassify the data. However, there are agencies who 
need the data, but who cannot declassify the data and/or who do not 
have appropriate clearances. What is the Air Force doing to advance 
policy and technical solutions that meet the civil needs for 
declassified OPIR data, such as for use in fighting forest fires in 
Colorado and other high-risk states?
    Mr. Loverro. The Air Force, through Air Space Command, provides 
Overhead Persistent Infrared (OPIR) data throughout DOD and to civil 
agencies for data interpretation and analysis. The Air Force 
understands that there is an issue with the release of classified OPIR 
data to U.S. departments and agencies without appropriate security 
clearances. To address this issue, Air Force Space Command is 
conducting a review of its security classification guidance, especially 
for data from the Space-Based Infrared System (SBIRS). Once this review 
is complete, the Department expects to be able to release more 
unclassified SBIRS data to U.S. departments and agencies that require 
access to the data.
    Mr. Lamborn. We have read the recent press about the Air Force's 
desire to turn Wideband Global SATCOM operations over to industry. How 
is the Air Force posturing itself to take advantage of this and other 
opportunities, such as enabling AFSCN connectivity to commercial 
antenna networks?
    Mr. Weatherington. Air Force Space Command (AFSPC) and Space and 
Missile Systems Center (SMC) are exploring ways to contract for 
commercial services to operate Wideband Global SATCOM (WGS) and AFSCN 
Telemetry, Tracking, and Command (TT&C) to take advantage of industry 
efficiencies. Currently, AFSPC and SMC are analyzing the results of a 
recently completed Commercial Provisioning study that will be used to 
develop future options based on mission requirements. This will also 
require legal review of the options to ascertain if there are any 
barriers to various approaches.
    Mr. Lamborn. The performance issues with Raytheon's OCX contract 
have been well documented, particularly in recent weeks. How is Air 
Force Space Command reducing risk and creating potential GPS III ground 
control requirement off-ramps should Raytheon continue to perform 
poorly?
    Mr. Weatherington. Air Force Space Command has initiated a short-
term GPS III Contingency Operations ground system capability 
development to reduce the constellation sustainment risk associated 
with any additional delays to OCX. Contingency Operations will allow 
the Air Force, prior to the full OCX functionality, to launch and 
checkout the initial GPS III satellites and make their signals 
operationally available to GPS users. The Air Force is also studying a 
potential long-term solution for meeting all validated OCX requirements 
should intractable problems with the current acquisition program 
require the Service to pursue an alternative strategy.

                                  [all]
</pre></body></html>
